     SMALL BUSINESS ADMINISTRATION




      OFFICE OF INSPECTOR GENERAL




   INSPECTION AND EVALUATION DIVISION




MODERNIZING HUMAN RESOURCE MANAGEMENT




              Report No. 2-20

               May 31, 2002
                                 TABLE OF CONTENTS

                                                                               Page

EXECUTIVE SUMMARY                                                                1

PURPOSE                                                                          3

BACKGROUND                                                                       3

SCOPE AND METHODOLOGY                                                            4

SERVICE DELIVERY                                                                 5

METRICS                                                                         10

THE HUMAN RESOURCE OFFICE AND STAFF                                             14

LEADERSHIP AND COMMUNICATION                                                    16

CONCLUSIONS AND RECOMMENDATIONS                                                 17

APPENDIX A—FEDERAL OFFICES SELECTED FOR VISITS                                  19

APPENDIX B—SELECTED BIBLIOGRAPHY FOR USE                                        20
           IN MODERNIZING A FEDERAL HRO

APPENDIX C—COMMENTS OF THE OFFICE OF
           MANAGEMENT AND ADMINISTRATION                                        22

APPENDIX D—CONTRIBUTORS TO THIS REPORT                                          24

TABLES

Table 1: Requirements for Successful Implementation of Functional Automation     8

Table 2: Barriers to Successful Implementation of Functional Automation          8

Table 3: Considerations in Choosing a Functional Automation Provider             9

Table 4: Considerations in Developing HR Metrics                                12

Table 5: Key HR Outcome Areas and Information Sources                           13
                        ABBREVIATIONS


COTS     Commercial-Off-The-Shelf
GAO      General Accounting Office
GOTS     Government-Off-The-Shelf
GSA      General Services Administration
HR       Human Resources
HRDN     Human Resources Data Network
HRIS     Human Resources Information System
HRM      Human Resources Management
HRO      Human Resource Office (generic)
NIH      National Institutes of Health
OIG      Office of Inspector General
OMB      Office of Management & Budget
OPM      Office of Personnel Management
SBA      Small Business Administration
TASC     Department of Transportation Administrative Service Center
USDAFS   United States Department of Agriculture Forest Service
USGS     United States Geological Survey
                                 EXECUTIVE SUMMARY

This inspection is designed to help the Small Business Administration (SBA) make some of the
decisions necessary to modernize the Agency’s Office of Human Resources. It provides relevant
experiences of selected Federal agencies in modernizing their human resource offices (HRO),
focusing on 1) service delivery methods (including automation, outsourcing, and cross
servicing), 2) human resource management (HRM) metrics, and 3) HR office structure. The
strategic management of human capital is one of the President’s five Governmentwide
management initiatives. It is closely related to two other initiatives, E-government and
competitive sourcing. The Comptroller General has emphasized that “employees are the
government’s greatest asset—its human capital.” To play a leading role in reforming human
capital management, Federal HROs must be equipped and positioned to deal with the
contemporary technological and results-oriented environment.

SBA’s Office of Human Resources has experienced little modernization and automation is
limited. To accomplish the President’s human capital initiative, SBA’s HRO must work with
agency leadership to provide strategic direction and focus for workforce transformation,
succession planning, employee recruitment, and retention. This will mean restructuring
processes and developing tools to help managers and employees become more self-sufficient for
routine HR activities and processes—that is, to a large extent, changing the way HR business is
done. To accomplish the effective and efficient strategic management of human capital, SBA
will need to modernize HRO’s current operations and business practices, including the
integration of HR functional automation.

Several recent developments in the Administration’s management reform efforts have been the
issuance of the Office of Personnel Management’s (OPM) Human Capital Scorecard containing
HR metrics, the Office of Management and Budget’s (OMB) decision to standardize and
consolidate Governmentwide HR/payroll service delivery, and OPM’s issuance of Standards for
HRM accountability. Based on the following conclusions drawn from our interviews and other
research, the OIG’s Inspection and Evaluation Division has developed four recommendations.

Conclusion: The cost and complexity of implementing an integrated human resource
information system (HRIS) suggest it may not be an appropriate goal for a small agency.
Moreover, OMB’s mandate to reduce redundancy and effect savings by developing an
HR/payroll solution architecture for only two to three Federal providers appears to overcome the
need for comprehensive HRIS implementation in SBA. However, in order to address the
President’s Management Agenda, SBA will need to take some interim steps to modernize HR
functions.

Recommendation 1: That SBA review the business case for its HRIS in light of other
agencies’ implementation experiences and the Administration’s new initiatives, and
consider available short term alternatives.

Conclusion: Metrics are key not only for building a strong business case for HRO
modernization and automation, but also for assisting in day-to-day HR management, helping line
managers accomplish their objectives, providing the basis for continuing improvement in HR



                                               1
processes, and demonstrating HRO value to the agency. The development of fully Federalized
functional applications in Governmentwide HR/payroll architecture may be far into the future,
however, and HRM modernization in the form of functional automation can produce greater HR
effectiveness, efficiency, and timeliness.

Recommendation 2: That the SBA HRO develop business case metrics to determine the
cost effectiveness of implementing appropriate functional automation software and/or
outsourcing or cross-servicing certain HR functions.

Conclusion: HR measurement should a) be the result of a close working relationship with
Agency leadership and line management; b) align with the Agency’s strategic plan goals; c)
show the HRO’s value; d) indicate whether progress is being made towards attaining human
capital goals; e) be quantifiable, if possible; and f) provide sufficient data to improve operations,
and support budget requests and management decisions.

Recommendation 3: That the SBA HR Office work with SBA management to develop a
measurement system that conforms to OPM’s Standards of HRM Accountability and
includes a) financial measures, such as cost per employee hired; b) customer satisfaction
measures, such as those associated with responsiveness and quality; c) workforce capacity
measures, such as employee satisfaction and education; and d) process effectiveness, such
as cycle time and productivity.

Conclusion: The question of how to organize an HRO is not as important as ensuring that
a) relevant activities are covered; b) the HR staff works closely with line management;
c) individual responsibilities are well-defined; and d) activities are publicized to all concerned–
HR staff, line managers, and the workforce.

Recommendation 4: That the new SBA Assistant Administrator for HR ensure that
a) relevant SBA HR activities, such as strategic advisory services, are incorporated into
office operations, and the office plays a key role in the Agency’s workforce planning and
restructuring effort; b) a process is in place for working closely with line management;
c) individual planning, policy, and operational responsibilities within the office are well-
defined; and d) HRO activities, metrics, and results are publicized to all concerned–HR
staff, line managers, and the workforce.

In response to the draft report, the Acting Deputy to the Associate Deputy Administrator for
Management and Administration stated in a memo to the OIG that “SBA agrees with the
overarching purpose of your report, which we see as upgrading the automation capabilities of
SBA’s Office of Human Resources (HR), which will result in more efficient processes that will
allow human resource specialists more time to provide advisory consultant services to SBA
managers.” SBA management agreed with the recommendations and noted that they intend to
incorporate the recommendations, where appropriate, into SBA’s 5-year Workforce
Restructuring Plan. (See Appendix C for the memo.)




                                                 2
                                              PURPOSE

This inspection is designed to help SBA make some of the decisions necessary to modernize the
Agency’s Office of Human Resources by providing relevant experiences of selected Federal
agencies in modernizing their HROs. The strategic management of human capital is one of the
President’s five Governmentwide management initiatives.1 Human resources offices (HRO)
should play a leading role in the effort to reform human capital management. To accomplish
this, they must be equipped and positioned to deal with the contemporary technological and
results-oriented environment. In the fall of 2001, OIG discussed with the then Assistant
Administrator for Human Resources the areas of concentration that would be of greatest use to
SBA. Consequently, the inspection focuses on 1) service delivery methods (including
automation, outsourcing, and cross servicing), 2) HR metrics, and 3) HR office structure.


                                          BACKGROUND

The strategic management of human capital is one of the five Presidential Initiatives. The others
are competitive sourcing, expanded E-government, budget and performance integration, and
improved financial management. While all five are mutually reinforcing, putting the right
people in the right jobs is the cornerstone for accomplishing the other four. As the Comptroller
General has emphasized, “employees are the government’s greatest asset—its human capital.”2
Of particular importance is the nexus between the management of Federal human capital and the
internal effectiveness and efficiency goal of the electronic Government (E-government)
initiative. Automating processes is essential to the goal of effective and efficient management of
human capital. Four of the Administration’s E-government initiatives directly relate to HR: e-
training, one-stop recruiting, electronic personnel record-keeping, and e-payroll. The human
capital goal may also be partially accomplished by pursuing another Presidential initiative—
competitive sourcing, both outsourcing and cross-servicing.

In the Federal Government, typically human resource planning and linkage to organizational
mission, vision, core values, goals and objectives is weak. Given the complexity and nature of
the Federal HR system, most HROs have been too process oriented. Many have been slow to
take advantage of technological advances in the HR area that can improve recruitment and
servicing efforts in today’s highly competitive job market. Few are able to provide the advisory
services needed for successful strategic HRM. Yet these are key enabling factors in
accomplishing effective workforce planning and restructuring, and in on-going HRM. Today’s
HROs must be more relevant to mission accomplishment and demonstrate greater value to the
agency.

The SBA Office of Human Resources has experienced little modernization and automation is
limited. SBA does participate in some interagency agreements for electronic operations—for
example, National Finance Center payroll, Employee Express which allows Federal employees
in participating agencies to make certain changes to their personnel-payroll information, and

1
 The President’s Management Agenda, http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf, page 4.
2
 General Accounting Office (GAO), “Human Capital: Managing Human Capital in the 21st Century,” GAO/T-
GGD-00-77, March 9, 2000.


                                                   3
Thrift Savings Plan account access services. SBA has purchased the software for a human
resources information system (HRIS) as part of an agencywide enterprise system but has not
begun implementation. To accomplish the effective and efficient strategic management of
human capital, SBA will need to modernize HRO’s current operations and business practices,
and consider the integration of HR functional automation.3


                                      SCOPE AND METHODOLOGY

For this inspection, an expert consultant with over two decades of Federal HR experience in the
Departments of Defense (DOD) and Veterans Affairs (VA) functioned as a team member and
provided the Office of Inspector General (OIG) with HR technical expertise. The team met with
a number of Office of Personnel Management (OPM) specialists on metrics and OPM’s
electronic initiatives. Site visits were made to five Federal HROs with efforts underway that
directly relate to the topics reviewed. Those agencies are General Services Administration
(GSA), National Institutes of Health (NIH), the Department of Transportation Administrative
Service Center (TASC), the U.S. Department of Agriculture Forest Service (USDAFS) and the
U.S. Geological Survey (USGS).4 These HROs are reassessing what needs to be done,
reprioritizing and/or redefining their missions, and developing strategic plans or business cases
to implement their new visions of human resource management (HRM). In addition, telephone
interviews were held with three other HROs regarding their automation experiences—the Farm
Service Center and National Resource Conservation Service in the Department of Agriculture,
and Robins Air Force Base in DOD. The relevant literature was also reviewed.5

As we were finalizing this report, several actions taken by the Administration changed much of
the dynamics of HR management with regard to automation and metrics. On December 7, 2001,
the Director of the Office of Personnel Management (OPM) issued OPM’s Human Capital
Scorecard. It contains objectives and measures to help agencies in addressing the President’s
human capital management initiative. On December 21, 2001, the Office of Management and
Budget (OMB) advised agencies that the Joint Financial Management Improvement Program
(JFMIP) had recommended the establishment of Governmentwide HR/payroll standardization,
enterprise architecture development, and consolidation of service delivery which will include an
electronic human resources data network (HRDN).6 In January OPM issued Standards for HRM
Accountability. This report takes these new developments into consideration.




3
  In this report the term modernizing is used to refer to organizational changes, including office restructuring, quality
improvements, streamlining efforts, the use of new technologies, and reengineering personnel processes such as that
used to hire employees or classify positions.
4
  See Appendix A for information on the offices visited.
5
  See Appendix B for a selected bibliography.
6
  The HRDN will enable the electronic transfer of HR data across agencies, over time eliminating the transactional
tasks of filing, shipping, and storing the Official Personnel File.


                                                           4
                                           SERVICE DELIVERY

To accomplish the President’s human capital initiative, SBA’s HRO must provide strategic
advice and focus for workforce transformation, succession planning, employee recruitment, and
retention. This means restructuring processes and developing tools to help line managers and
employees become more self-sufficient for routine HR activities and processes—that is, to a
large extent, changing the way HR business is done. A key component of the President’s E-
government initiative both externally and internally is to simplify all processes by eliminating
redundancy, providing timely service, improving internal effectiveness and efficiency, reducing
errors and process time, and making processes usable. In the HR arena, automation is critical to
reengineering and improving service delivery.7

Automation: In this report, two automation terms are used—human resources information
system (HRIS), and functional or transactional automation. An HRIS is an automated system
that includes a wide range of data on the organization’s workforce (e.g., employee names; social
security account numbers; the employees’ position titles, series, and grades; their rate of pay,
etc.) and the organization’s position and organization structure. This data is used to process
personnel actions, generate data necessary for payroll processing, and retain a historical record of
the organization’s workforce history. The HRIS system can also contain additional information,
such as workforce training history and future requirements, award history, performance rating
data, and position skill or competency requirements. The term functional or transactional
automation is used to distinguish the automation of major labor-intensive HR functions such as
staffing/hiring, position classification, employee relations advisory services, etc.

The emphasis for HROs in the future will be more on building a partnership with line
management, and providing managers with strategic advisory services than on processing paper.
The labor-intensive transactional work that, by necessity, has been a core activity of the Federal
HR office is increasingly being performed by automated systems. Typically, the systems
include: open architecture, client/server, computer telephone integration, imaging, distributed
databases, electronic data interchange across high-capacity telecommunications lines, and
artificial intelligence to respond to routine inquiries or perform needed processes.

HROs we interviewed were typically pursuing one or both of two automation initiatives, the
implementation of a new HRIS to replace the agency’s legacy HRIS, and/or the implementation
of commercial-off-the-shelf (COTS) or government-off-the-shelf (GOTS) functional automation.
Agencies have undertaken to implement COTS HRIS because their legacy systems either lacked
needed functionality (for example, reports generation, workforce planning capacity,
manager/employee self-service), were antiquated and in need of far too much maintenance, or
the HRIS was part of a broader agencywide enterprise system implementation. They use
functional automation to speed slow and labor intensive HR processes and enable the HR
organization to accomplish needed work when staff are unavailable because of downsizing. In
addition, functional automation is used to free HR staff from transactional work so they may
perform more value-added strategic advisory work.

7
 Technology can enhance efficient training delivery and provide employees with greater developmental
opportunities at a reduced per person cost. While we do not address e-training in this inspection, we recognize its
potential value to SBA.


                                                          5
COTS HRIS implementation projects are complex and costly efforts. They should not be
entered into with the anticipation of rapid improvement in HR services. Post-implementation,
users have not necessarily gained increased functionality or faster service from their HRIS
because the initial implementation included only basic HR action processing for “hire, fire, and
pay actions.” The longer-term objective includes expanding the users’ functionality to broader
areas, but that expansion will occur years, not months, into the implementation.

GSA fully implemented a major HRIS system in 2000 following a procurement process begun in
1996. They now service 14,000 GSA customers and an additional 4,000 at other Federal
agencies. At one point, GSA had a 40 person implementation team, including government staff
and costly contractor expertise. Some of the latter often lacked sufficient Federal HR
experience. The magnitude of HRIS implementation activities is not directly related to agency
size. According to GSA officials, even with a small agency, most of the same implementation
activities would still have to be performed on the COTS product. For implementation, they
recommended one to two years of work, an excellent project manager, superior consultants with
Federal HR experience with the product, and a dedicated team. Our research strongly suggested
the prudence of outsourcing HRIS implementation and operations to a Federal agency provider.

Although several years ago SBA developed a business case and purchased an enterprise system
that includes an HRIS component, it has not been implemented. Its implementation now would
require a new database and considerable development and configuration work. Moreover, there
have been several new Governmentwide developments in the HR area.

To eliminate redundancy and reduce the costs of replacing and/or implementing HR/payroll
systems, OMB has now incorporated the simplification and unification of the various elements of
the HR/payroll process, and the consolidation and integration of HR and payroll systems across
government under the Internal Efficiency and Effectiveness steering group of the “E-
government” effort. The strategy includes establishing central governance over HR/payroll
initiatives; standardizing HR/payroll policy and processes; developing integrated
Governmentwide enterprise architecture for HR/payroll systems; and consolidating HR/payroll
service delivery to two to three providers. This initiative appears to preempt implementation of
HRIS systems—at least by small agencies. At this time, it is not clear when the Administration’s
HR/payroll initiative will include functional automation, however. Agencies may want to
continue to pursue their own functional initiatives.

While not simple, the magnitude of difficulty in implementing functional automation is not
comparable to that encountered with an HRIS. A wide variety of HR functions are now
available in software. These include, for example, position classification, staffing, benefits
administration, time and attendance reporting, training administration, position description
writing, and employee relations advisory.

Implementation of COTS or GOTS functional automation by the agencies interviewed appears to
be yielding short-term process improvements by speeding processes and eliminating paperwork.
For example, ten months after acquiring a COTS product for automating the staffing function,
the USGS project team of 3 full-time and 2 part-time employees with solid HR and automation



                                               6
knowledge was able to roll it out agencywide. It has radically reduced the amount of time
required to produce a referral list (from 32 to 62+ days, to 4 days). The team was led by an
information technology professional hired by the HRO. Although a significant amount of work
was required to customize the system’s assessment approach for agency positions, USGS
officials report that the return-on-investment for purchasing the system and customizing the
assessments has been quickly recouped.

NIH, TASC, GSA, and USDAFS had similar experiences in automating various staffing and/or
classification activities via COTS systems. Although the transition was not as smooth as in
USGS, the Forest Service was able to begin implementing a COTS staffing product only 16 days
after procurement. To handle their implementation, the Forest Service used a team consisting of
two and a half full time employees, augmented on an as needed basis by a virtual team of other
headquarters and field representatives. In telephone interviews, other HROs spoke of similar
successes in automating the staffing function by using OPM’s GOTS staffing product.

SBA’s staffing activities are limited at this time because there has been little outside recruitment.
However, staffing automation has the advantages of 1) significantly expanding the pool of
applicants for positions, and 2) reducing the length of time to hire, thereby making the agency
more competitive.

The SBA HRO conducts extensive classification activities. Moreover, projected Agency
restructuring will entail greater use. TASC is using a COTS classification system primarily for
the generation of performance plans and establishing career ladder job descriptions as opposed to
routine position classification actions. The other organizations we visited were either in the
process of implementing, had implemented in selected locations, or had plans to implement, an
automated position classification system. While all COTS classification products speed the slow
and labor intensive processes of job analysis, they take somewhat different approaches. For
example, in some products the staffing and classification functions are inseparable and in others
each function can stand alone. Optimally, classification products enable line managers to
actually accomplish job analysis, position description development, and/or position classification
without having to become “position classification specialists.”

Tables 1and 2 provide some guidance on the requirements for, and barriers to, successfully
implementing any functional automation.




                                                 7
REQUIREMENTS FOR SUCCESSFUL IMPLEMENTATION OF FUNCTIONAL
                      AUTOMATION*

•   Develop a business case
•   Clearly establish technical and reporting requirements
•   Use a proven product/partnership
•   Appoint a “risk taker” to lead the project
•   Ensure that a dedicated team with the right skills implements the project
•   Provide sufficient and appropriate user training
•   Allow time before implementation to re-engineer and thoroughly document business
    processes
•   Develop a process for dealing with unanticipated issues
•   Defer taking HR staff savings until after implementation is completed
•   Pick HR champions in management at the beginning and keep them involved
•   Ensure that a dedicated team manages the project after the rollout

*Selected considerations, not intended to be all inclusive
                                                       Table 1



               BARRIERS TO SUCCESSFULL IMPLEMENTATION OF
                        FUNCTIONAL AUTOMATION*

•   Fear of technology
•   Resistance to change
•   Skepticism
•   Internal turf issues
•   Lack of leadership support

*Selected barriers, not intended to be all inclusive
                                                       Table 2

Functional automation via either COTS or GOTS systems can yield real changes in HR business
processes and improvement in service levels in a relatively short timeframe. However, the
General Accounting Office (GAO) found in a 1998 study that although four Federal departments
had begun to automate the processes for classifying and staffing functions, much of the new
automation was not in place even though personnel staff reductions had already occurred. GAO
reported that “some officials said that when restructuring8 efforts began they had not fully
appreciated the need to 1) assess existing automated systems before making changes, 2) have
technology in place before downsizing personnel staff, and 3) allow sufficient time for testing

8
  The GAO uses the term “restructure” to refer to major organizational changes, including reorganizations,
consolidations, downsizing, quality improvements, streamlining efforts, the use of new technologies, and
reengineering personnel processes such as the process used to hire employees.


                                                             8
the new technology.” Department officials recommended that other agencies facilitate the
conversion process by considering the option of purchasing commercially available software
rather than building new personnel systems in-house.9 Table 3 provides some considerations in
selecting a functional automation product.


                           CONSIDERATIONS IN CHOOSING
                       A FUNCTIONAL AUTOMATION PRODUCT*

•   Ability of the product to meet your requirements
•   The degree to which the product requires customization before it can be successfully
    implemented
•   The organization’s ability (via organization or contract staff) to customize the product
•   The organization’s capacity to provide computer support—that is, run the computer
    operations for the product—or whether computer operations are provided by the
    vendor
•   Internal workload requirements for implementation and maintenance.
•   Additional technology requirements to operate the software
•   Who owns the agency specific materials developed for and used by the system—your
    agency or the provider
•   Cost and time required to recoup return on investment for purchasing the system—
    i.e., the business case for documented savings to be gained
•   Customer satisfaction with the vendor’s product
•   The vendor’s degree of support to the customer before, during, and after system
    implementation
•   Ease of operation for system users—HR staff and line managers, if appropriate
•   The product’s compliance with Federal HR requirements

* Selected considerations, not intended to be all inclusive
                                                       Table 3

Outsourcing and Cross Servicing: A number of HR organizations are outsourcing work that is
not central to meeting business goals if a contractor (whether public or private) can perform as
effectively for less. NIH uses contractors to perform a variety of services ranging from files
maintenance to training delivery. Purchasing specific services from a provider enables client
agencies to provide HR services as needed without bearing the burden of maintaining permanent
staff to perform the services. A full service HR function requires a base level of core services
which may be expensive for a small agency. Outsourcing alleviates the problem of delivering
services for which skilled employees are unavailable. On the other hand, we were advised that
care has to be taken to be certain the contractors are current in their skills. Moreover, using
contractors in lieu of Federal employees does nothing to develop future Federal HR
professionals. Given the complex nature of Federal HR laws and related processes, this is a


9
 GAO, “Management Reform: Agencies’ Initial Efforts to Restructure Personal Operations,” GAO/GGD-98-93.
July 1998, pp. 16-17.


                                                          9
serious consideration. We were also told that although no longer a fixed cost, the hourly cost for
contractors also may exceed that for Federal staff.

TASC is a “fee for service” organization, earning their operating fees by selling HR services
internally to DOT offices and externally to others. They provide a wide range of HR services to
16 Federal agencies. To deliver their services, TASC also employs Federal retirees as HR
contractors. There are currently ample experienced contractors available to do HR professional
work (GS-11/12/13). We believe, however, that if the size of the internal Federal HR population
continues to decrease, that resource may diminish in the future.

GSA now provides payroll and/or processing services to external customers. Their files and
some lower-level data entry work have been consolidated, but GSA has found it difficult to
contract out HR technician level work (GS 5/6/7 transaction processors) because the technical
expertise has not been available in the contractor marketplace.

Building a Business Case: HROs that have been provided the resources and are successfully
implementing new technology have first developed solid business cases. The USGS and the
Forest Service developed business cases for their automated staffing systems. The USGS
business case included a description of the current state of agency HR operations, and the costs
and benefits of changing to an electronic system. The business case indicated the needed
resources and provided 22 metrics to support the business case. Some of the metrics they used to
support the need for staffing automation were:

•   The frustration factor—applicant supply/demand comparison
•   A time used comparison of an automated versus manual process
•   A productivity/loss analysis
•   Projected applicant pool increase
•   Proposed cost savings on panels
•   Projected improvement in HR operations
•   The relationship to accomplishing the department’s initiatives
•   The competitive advantage the USGS would have—while this was not quantified, there was
    anecdotal evidence

Because USGS does a significant amount of hiring, two years after the implementation of
automated staffing for $1 million in developmental costs, USGS had $6 million in recognized
savings for the organization as a whole. While they expect a 20-30 percent savings for the HRO
eventually, it will not occur in the short term.


                                           METRICS

The Government Performance and Results Act and the President’s Management Agenda
emphasize strategic direction and accountability. While measurement is not all there is to HRM
accountability, measures are becoming increasingly important to the strategic direction of both
the HRO and the organization it services. And they are critical to building a business case for
modernizing operations and automating. A 1998 GAO report on restructuring personnel


                                               10
operations found that without adequate information on the services being offered, the service
quality, and their costs, agencies have a difficult time making an informed decision on whether
to purchase personnel services from another Government agency.10 In the past, SBA had some
HR metrics. We were told, however, that they did not appear to be consistently produced by the
HRO or considered as particularly important by customers.

The Administration has now set a strategic mandate for measurement in the human capital area.
In December 2001 the Director of OPM issued OPM’s Human Capital Scorecard. It is to be
used in combination with OMB’s Human Capital Standards for Success in attaining the human
capital objectives in the President’s Management Agenda. The OPM scorecard was developed in
collaboration with agency HR directors and draws heavily on private sector practices. It outlines
five dimensions of human capital: leadership, performance culture (strategic awareness), learning
(knowledge management), strategic alignment, and strategic competencies (talent). It also
provides performance goals and a set of objective measures for each dimension. The measures
will be used to assess and report progress on improving strategic human capital management,
and allow comparisons and benchmarking with high performing government and private sector
organizations. The three types of measures used are check off, improvement gauge, and
comparative. Information on data sources, tracking, and reporting on the measures is included.
All of the information for the comparative measures will come from a Governmentwide random
sample survey to be conducted by OPM. In accordance with Executive Order 13197, in January
2002 OPM also issued Standards for Agency HRM Accountability Systems Under the Merit
System Principles which describes the essential features of an internal HRM accountability
system.

The OPM scorecard will assist agencies in tracking their progress in achieving their agencies’
strategic HR objectives. Each HRO, however, will need to develop additional operational
measures to build a business case for technology improvements, assist in day-to-day HR
management, help line managers accomplish their objectives, provide the basis for continuing
improvement in HR processes, and demonstrate HRO value to the agency.

The Administration’s scorecard clearly shows that HR metrics should go beyond the notion of
merely measuring HR processes/operations. They should not be used just as a report card; they
need to be used for process improvement. Performance objectives must be clearly established.
HR measurement should:

•      Be the result of a close working relationship with agency leadership and line management to
       determine what the agency needs to know and what information will provide the greatest
       value;
•      Align with the agency’s core business practices, and strategic and operational goal
       performance;
•      Indicate whether HRM is accomplishing its objectives;
•      Enable the agency to assess its progress towards attaining its human capital goals;
•      Be quantifiable, if possible;


10
     Ibid, pp. 14 & 17.


                                                 11
•    Provide sufficient data to improve operations, and support budget requests and management
     decisions; and
•    Convey measurement trends in terms of strategic mission accomplishment.

Table 4 identifies several items to consider when developing HR metrics beyond those in the
OPM scorecard.


                 CONSIDERATIONS IN DEVELOPING HR METRICS*

•    Frame measures in simple terms the customer will understand and show trends
•    Develop measures that will help line managers accomplish what they want to
     accomplish
•    Tie metrics to the agency strategic plan and to specific program initiatives
•    Put generic information in an organizational framework
•    Build a business case for HR as strategic asset
•    Identify the performance return on human capital investments
•    Keeping in mind that not everything can be measured, focus, at least initially, on one
     of two measures for each area of concern.

* Selected considerations, not intended to be all inclusive
                                             Table 4

To assist agencies in tracking their progress in achieving their strategic HR objectives, OPM has
issued standards for the development of an HRM accountability system. Each agency must
develop and use an internal accountability system with measures in four broad categories.

•    Strategic alignment
•    HRM program effectiveness
•    HR operational efficiency
•    Legal compliance11

Indicating that “measurement systems need to be tailored to fit the situation,” a 1997 NAPA
study identified four aspects of HR that can be measured using a balanced scorecard approach.
They are: 1) financial measures, such as cost per employee hired and litigation costs; 2)
customer satisfaction measures, such as those associated with responsiveness and quality; 3)
workforce capacity measures, such as employee satisfaction and education; and 4) process
effectiveness, such as cycle time and productivity12. Table 5 identifies some key outcome areas
for HR metrics and their information sources.




11
   See also OPM, “Human Resources Management (HRM) Accountability System Development Guide,” April
1999. For best practices, see OPM’s “Human Resource Management Clearinghouse” at
http://www.opm.gov/account/clrnghse/clrnghse.htm.
12
   NAPA, “Measuring Results: Successful Human Resources Management,” August 1997, pp. 65.


                                                          12
                                 KEY HR OUTCOME AREAS
                               AND INFORMATION SOURCES*

Organizational/Mission Success

•    Client satisfaction—from management and customer satisfaction surveys

•    Training effectiveness (training accomplished and improved work processes)—from
     management surveys, and other indicators of improved performance, for example,
     appraisals, awards, bonuses, etc.

Efficiency

•    HR cost and/or benefits for any specific initiative

•    Comparative cost and ratios with other like organizations (benchmarking)

Trend Data

•    Employee retention, morale, commitment, and skills—from turnover, employee
     attitude surveys, and exit interview information

•    Open positions, hiring, retirement, and terminations—from HRIS

•    Diversity groups—from HRIS


* Selected outcome areas, not intended to be all inclusive
                                                       Table 5

Both the TASC HR organization at the Department of Transportation (DOT) and the Forest
Service take a “balanced scorecard” approach to developing metrics. TASC has addressed cost
effectiveness, customer satisfaction, HR workforce skills, continuous improvement, and HR
employee performance.13 They 1) conducted customer, and HR employee and management self-
assessment surveys to determine the various areas that needed to be addressed; 2) took the entire
HR staff off-site to analyze the data; and 4) developed an action plan to address areas of concern.
Their scores were compared against all other DOT HR offices. Initially, they were below
average in many areas. By the third year, however, they had become the departmental “best in
class” in nine out of the ten measures. In conducting surveys to gather measurement data, some
of TASC’s “lessons learned” are:


13
  From these five perspectives, ten different dimensions emerged: timeliness, quality, service/partnership, quality
work environment, executive leadership, excellence in HR programs, effective use of information technology,
quality workforce, mission goals, and financial perspective.


                                                         13
•   Survey instrument validations are essential;
•   Automating data collection facilitates the process;
•   Annual surveys provide opportunities for monitoring and continuous improvement;
•   Employees are fertile sources of organizational insights and improvement ideas;
•   Surveys are useless unless the results are used;
•   Action plans to respond to the results are critical; and
•   Proactive communication with customers about what has been learned and what is being
    done about it is essential.

Based on their experience, TASC officials note that the major lesson learned has been to act on
feedback.


                               THE HR OFFICE AND STAFF

Structure: Vital service-oriented HR offices are effecting changes that will enable them to
optimize staff utilization and improve strategic advisory services to line managers by applying
technology to the accomplishment of “process-oriented” HR work, outsourcing, and further
developing HR staff competencies. Our discussions with Federal HR officials consistently
underscored that responsive and relevant Federal HROs are not status quo organizations.
Nevertheless, our research indicates there is no “one approach fits all” solution to how HR
organizations that are incorporating new work activities such as automation, strategic planning,
and performance assessment and reporting should be structured.

Some HR officials believe good policy can best be developed by staff who have operational
insight and contact with the customer; they are unifying policy and operations. Others separate
policy and operational activities to preclude operational workload from diluting the ability to
complete necessary policy development and evaluation activities. The question of how to
organize is not as important as ensuring that

•   Relevant activities are incorporated into the organization;
•   There is a close working relationship with line management;
•   Individual responsibilities are well-defined; and
•   Activities are publicized to all concerned–HR staff, line managers, and the workforce.

For facilitating the implementation of automation or the handling of strategic planning activities
and metrics development, HR offices frequently establish project offices/teams. The USGS and
USDAFS successfully used teams to handle their functional automation implementation. The
USGS hired an information technology specialist to lead the automation effort. To handle
strategic planning activities and metrics development, TASC established a “Maximizing for
Performance” organizational entity and USDAFS created a “Corporate Initiatives” unit.

Regarding organizational structure, the best advice may come from the National Academy of
Public Administration’s Center for Human Resource Management. Any restructuring process
should:



                                               14
•    Result in improved customer service and enhance the HR department’s value;
•    Better position HR to move from a reactive process-oriented focus to the strategic platform
     needed to become full business partners;
•    Help HR staff members add value by positioning them to directly assist line managers in the
     hiring and development of their people; and
•    Align HR with the business strategy of its customers and stakeholders.14

HR Skills and Competencies: The skills and competencies that HR professionals need to be
successful have changed. In responsive organizations, HR professionals are becoming change
agents, strategic partners, and consultants. This does not mean HR organizations should develop
agency strategy. It does mean that HROs must develop partnerships with line management, and
identify and deliver the people aspects of agency strategy. In many reengineered HR
organizations, there are more generalists at the customer contact level. Specialists set policy,
study trends, design process improvements, and provide support to generalists. In addition to the
continuing need for technical HR knowledge, there is increased emphasis on computer and
telecommunications literacy for using new HR programs, consulting and advisory skills,
strategic planning, change management strategies, business case analysis, organizational design,
and process redesign and continuous improvement methodology. Working with agency
management also entails using more of the flexibilities that are currently available for HRM.

A 2001 report by NAPA on changes in the roles and functions of HR organizations since 1996
found that “deficiencies in staff skills are a significant obstacle to HR’s efforts to improving the
effectiveness of the HR function and to HR’s ability to become a business partner” in their
organizations.15 The organizations we interviewed indicated their current ability to provide
consulting and strategic advisory services to their clients needs improvement. There was
concern by some officials that the state of the profession has deteriorated as a consequence of
downsizing through attrition and buyouts. Limited external hiring of people with the requisite
business skills over the last decade, coupled with the aging of the HR workforce signals a
potential retirement exodus of knowledgeable and appropriately skilled people without adequate
knowledge replacement. Increasing use of HR technology will eventually eliminate a great deal
of the transactional work that once was a core activity of the Federal HRO. While there will still
be an emphasis on basic HR program and functional knowledge, it will expand to include the
application of that knowledge to achieve mission results rather than focussing primarily on HR
programmatic goals.

While limited in scope, some agencies are beginning to recruit HR professionals and use
outsourcing and cross-servicing to a greater degree than in the past. If appropriate, agencies
should leverage internal HR skills by using external expertise from consultants, professional
associations, and other organizations. The HROs interviewed are taking action to address skills
imbalances through classroom and on-the-job training, cross-training, and recruitment initiatives.
The Forest Service now trains staff in the OPM-defined competencies.


14
   NAPA, “Focus: Strengthening the Human Resources Department Through Strategic Alignment, Restructuring,
and Benchmarking,” [1998], p. 7-10.
15
   NAPA, “Changes in the Human Resources Function Since 1996: Implications for Federal HR Competencies,”
March 2001, page 3.


                                                    15
NIH has taken a significant step towards enhancing HR professionals’ credentials by
implementing a certification program for HR staff, requiring employees to acquire “consultant
certification” before they can be promoted to GS 12 or above. The certification process at NIH
is now outsourced to agencies such as the International Personnel Management Association and
the Society for Human Resources Management. We were told that the program has resulted in a
qualitative difference among the staff gaining certification. Moreover, because HR professionals
from outside NIH find certification professionally stimulating, it is an employment draw.

Some HROs provide business skills training including business case analysis, marketing, and
business communications on a wholesale basis to essentially all staff members, while others take
a more “just in time” approach to offering such training. For example, GSA is isolating specific
areas in which the staff can help line managers with strategic needs–for example, strategic
competency identification/development, strategic awareness, and performance culture–and
devoting attention to those areas as opposed to spreading those resources too thinly. On a
temporary basis, some organizations have found it useful to outsource certain activities of this
nature to ensure their organization is able to provide the needed service while they train their
own staff. Some hire contractors to teach HR staff. No quantitative or qualitative data is
available to determine which approach produces the best results.


                         LEADERSHIP AND COMMUNICATION

Leadership: Progressive organizations tend to have their senior HR executive on the agency’s
top management team. This individual is personally committed to, and drives, the change,
ensuring the development of a strong business case that factors in customer requirements and
clearly outlines the desired outcome.

Change management requires supportive agency leadership. Moreover, it is agency leadership
that can most effectively bring line management into the strategic HR process. The effective HR
leader actively cultivates agency leadership support, clearly communicating the business case for
change, emphasizing the nature, complexity, and duration of the HR transition.

Communication: Successful HR organizations regularly report on progress in attaining goals to
agency leadership, HR employees, and line managers to maintain support. Because the
implementation of technological innovations generates some changes in employee working
conditions, early and continuous communication with HR employees and workforce bargaining
representatives is important. The reason the transition must be made has to be clearly conveyed
to the HR staff and the HR leader must support staff in making the change by providing the
needed training and work opportunities. Interviewees advised that the introduction of functional
automation offers many advantages to which workforce bargaining units have reacted positively.
For example, USGS HR officials found that union representatives were favorably impressed that
the COTS system they used for staffing eliminated 1) the need for employees to prepare lengthy
KSA narratives in response to vacancy announcements, and 2) expert panel assessments that are
sometimes perceived as subjective.




                                               16
Some HROs have experienced success by tying staffs’ performance awards, including cash and
time off awards, to specific goals. For example, TASC used goal sharing with teams sharing a
cash award if their performance met a targeted level of performance and contributed to continual
improvement in HR service levels. Tailoring staff performance standards to a specific objective
was regarded as a key ingredient in driving service improvement.


                      CONCLUSIONS AND RECOMMENDATIONS

Based on our interviews and other research, we developed the following conclusions and
recommendations.

•   The modernization of HROs is directly related to the strategic management of human capital
    and expanded electronic government goals of the Presidential Management Agenda.

•   The cost and complexity of implementing an integrated HRIS system suggest it may not be
    an appropriate goal for a small agency.

•   Implementation of the HRIS SBA has purchased would require a new database and
    considerable development and configuration work.

•   Moreover, OMB’s directive to reduce redundancy and effect savings by developing an
    HR/payroll solution architecture for only two to three Federal providers appears to overcome
    the need for comprehensive HRIS implementation in SBA.

•   However, to effectively address the President’s Management Agenda, the Agency will need
    to take interim steps to modernize HR functions.

Recommendation 1: That SBA review the business case for its HRIS in light of other agencies’
implementation experiences and the Administration’s new initiatives, and consider available
short term alternatives.

•   Effective service oriented HR organizations grow out of changing the way they do business
    and leveraging technology.

•   Agency leadership support, strong HR leadership, well developed business cases, and
    continual communication are common attributes of successful HRO change.

•   Metrics are key not only for building a strong business case for HRO modernization and
    automation, but also for assisting in day-to-day HR management, helping line managers
    accomplish their objectives, providing the basis for continuing improvement in HR
    processes, and demonstrating HRO value to the agency.

•   The Administration’s HR/payroll initiative is a “work in progress” and development of fully
    Federalized functional automation applications in the envisioned Governmentwide
    HR/payroll architecture may be far into the future.


                                              17
•   HRM modernization in the form of functional automation can produce greater HR
    effectiveness, efficiency, and timeliness.

Recommendation 2: That the SBA Office of HR develop business case metrics to determine the
cost effectiveness of implementing appropriate functional automation software and/or
outsourcing or cross-servicing certain HR functions.

•   HR measurement should: a) be the result of a close working relationship with agency
    leadership and line management; b) align with the Agency’s strategic plan goals; c) show the
    HRO’s value; d) indicate whether progress is being made towards attaining human capital
    goals; e) be quantifiable, if possible; and f) provide sufficient data to improve operations, and
    support budget requests and management decisions.

Recommendation 3: That the SBA HRO work with SBA management to develop a
measurement system that conforms with OPM’s Standards of HRM accountability and includes
a) financial measures, such as cost per employee; b) customer satisfaction measures, such as
those associated with responsiveness and quality; c) workforce capacity measures, such as
employee satisfaction and education; and d) process effectiveness, such as cycle time and
productivity.

•   The question of how to organize an HRO is not as important as ensuring that a) relevant
    activities are incorporated into the organization; b) there is a close working relationship with
    line management; c) individual responsibilities are well-defined; and d) activities are
    publicized to all concerned–HR staff, line managers, and the workforce.

Recommendation 4: That the new SBA Assistant Administrator for HR ensure that
a) relevant SBA HR activities, such as strategic advisory services, are incorporated into office
   operations, and the office plays a key role in the Agency’s workforce planning and
   restructuring effort;
b) a process is in place for working closely with line management;
c) individual planning, policy, and operational responsibilities within the office are well-
   defined; and
d) HRO activities, metrics, and results are publicized to all concerned–HR staff, line managers,
   and the workforce.




                                                 18
                                                                             APPENDIX A



                      FEDERAL OFFICES SELECTED FOR VISITS



                                                          APPROXIMATE
      ORGANIZATION            AREA OF INTEREST              POPULATION
                                                             SERVICED
                                                        & SERVICING RATIO
     OPM, Office of Merit     Background on HR Metrics N/A*
     Systems Oversight &
     Effectiveness

     OPM, Human               Background on              N/A
     Resources Data           Automation & Electronic
     Network Project          Official Personnel File
     Office

     OPM, Employment          Background on Functional   N/A
     Service                  Automation

     National Institutes of   HR Competencies &          19,500
     Health (NIH) HRO         Service Delivery           1:65

     Transportation           Service Delivery, &        1,000 Departmental +
     Administrative           Balanced Scorecard         Contract Fee for Service
     Service Center           Metrics                    1:150
     (TASC)

     General Services         Automation, Service        14,000 Departmental +
     Administration HRO       Delivery,                  Cross Servicing
                                                         1:90
     US Geological            Automation & Business      10,000
     Survey (USGS) HRO        Cases                      1:100

     US Department of         Metrics & Automation       42,000-47,000
     Agriculture Forest                                  1:44
     Service
     (USDAFS) HRO


* N/A—Not Applicable



                                             19
                                                                             APPENDIX B


                        SELECTED BIBLIOGRAPY FOR USE IN
                          MODERNIZING A FEDERAL HRO


Corporate Leadership Council, A New Measurement Mandate: Leveraging HR and
      Organizational Metrics to Enhance Corporate Performance, Washington, DC, Corporate
      Executive Board, 2001.

National Academy of Public Administration, Center for Human Resources Management,
       Changes in Human Resources Competencies Since 1996: Implications for Federal HR
       Professionals, Washington, National Academy of Public Administration, March 2001.

National Academy of Public Administration, Center for Human Resources Management,
       Changes in the Human Resources Function Since 1996: Implications for Federal HR
       Competencies, Washington, National Academy of Public Administration, March 2001.

National Academy of Public Administration, Center for Human Resources Management,
       Innovative Approaches to Human Resources Management, Washington, National
       Academy of Public Administration, 1995.

National Academy of Public Administration, Center for Human Resources Management,
       Measuring Results: Successful Human Resources Management, Washington, National
       Academy of Public Administration, August 1997.

National Academy of Public Administration, Center for Human Resources Management,
       Strategies and Alternatives for Transforming Human Resources Management,
       Washington, National Academy of Public Administration, 1995.

National Academy of Public Administration, Center for Human Resources Management,
       “Strengthening the Human Resources Department Through Strategic Alignment,
       Restructuring, and Benchmarking,” Focus, Washington, National Academy of Public
       Administration,[1998].

National Academy of Public Administration, Center for Human Resources Management,
       The Case for Transforming Public-Sector Human Resources Management, Washington,
       National Academy of Public Administration, July 2000.

U.S. General Accounting Office, A Model of Strategic Human Capital Management, Exposure
       Draft, GAO-02-373SP, Washington, General Accounting Office, March 2002.

U.S. General Accounting Office, Management Reform: Agencies’ Initial Efforts to Restructure
       Personnel Operations, GAO/GGD-98-93, Washington, General Accounting Office, July
       1998,



                                            20
U.S. Office of Personnel Management, Human Resource Management Clearinghouse,
       http://www.opm.gov/account/clrnghse/clrnghse.htm.

U.S. Office of Personnel Management, Office of the Director, “Memorandum: The OPM
       Human Capital Scorecard,” Washington, Office of Personnel Management, December 7,
       2001.

U.S. Office of Personnel Management, Office of Merit Systems Oversight and Effectiveness,
       Strategic Human Resources Management: Aligning with the Mission, Washington, U.S.
       Office of Personnel Management, September 1999.

U.S. Office of Personnel Management, Office of Merit Systems Oversight and Effectiveness,
       Strategic Human Resources Management: Human Resources Management
       Accountability System Development Guide, Washington, U.S. Office of Personnel
       Management, April 1999.

U.S. Office of Personnel Management, Office of Workforce Relations, A Guide to Strategically
       Planning Training and Measuring Results, Washington, Office of Personnel
       Management, July 2000.




                                             21
                                                       APPENDIX D

                         CONTRIBUTORS TO THIS REPORT


Mary Jeanne R. Martz, Senior Inspector
Pamela M. Creek, Consultant
Stephanie M. King, Presidential Management Intern




                                            24
